THE SUPREME COURT OF THE UNITED STATES

CERTIFICATE OF SERVICE*
Docket Number: o£0 "*§^0

ereby certify under penalty of perjury that
|, I served a coi
by (select all applicable)**
Personal Delivery
Commercial Carrier

United States Mail

Federal Express or other Overnight Courier

E-Mail (on consent)

on thelollowing parties:
Ciu

Name

Z ip Code

rM- loo 3a
*A party must serve a copy of each paper on the other parties, or their counsel, to the appeal or
proceeding. The Court will reject papers for filing if a certificate of service is not simultaneously filed.
**If different methods of service have been used on different parties, please complete a separate
certificate of service for each party.
f
1
*v

iP/KiA3*oC6i>|
Today’s Date

Signature

RECEIVED

APR - 6 m

